Record No. _____

In The

Supreme Court of the United States
FLOYD CLARK,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Floyd Clark, requests leave to file the attached
Petition for a Writ of Certiorari to the United States Court of Appeals
for the District of Columbia Circuit without prepayment of costs and to
proceed in forma pauperis pursuant to Rule 39. The United States
Court of Appeals for the District of Columbia Circuit appointed counsel
to represent Petitioner. The Order appointing counsel is attached to this
motion along with the Petitioner’s Affidavit in Support.
January 27, 2021
Respectfully Submitted,
/s/ Steven R. Kiersh
Steven R. Kiersh
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200
Counsel of Record for Petitioner

USCA Case #19-3040

Document #1815805

Filed: 11/14/2019

Page 1 of 1

